Supre

No.

™c°oun, us.

my 1 8 2021
SffiCEOF H^clcrk

SUPREME COURT OF THE UNITED STATES

[Sylvia Black,
[Petitioner,
Vs.

[Peace Officer Christine Vitello, Peace Officer Rick Rosenberry,
Peace Officer Bill Heine, of the SPCA, WNY, SPCA of Western
New York
P
PETITION FOR A WRIT OF CERTIORARI

Sylvia Black Pro Se
(716) 428-9892
3843 Union Road, 15-252
Cheektowaga, NY 14225
Sblack3001@gmail.com

Black v Vitello> et. al.,

RECEIVED
JUL 1 2 2021
suPR^nRl^RX

Page /1

I. Question Presented
Where Peace Officers violated Plaintiffs Fourth Amendment
Rights by Forging Judge Hannah’s Signature on a Warrant that
allowed Erie County Offices to Enter Plaintiffs premises.
Defendants, place of business was in Niagara County at the time
of the break in.
Peace Officers did not have a basis for their entry, they
possess no signed application by a Magistrate Judge prior to
illegally breaking into Plaintiffs home and confiscating her cats.

Black v Vitello, et. al.,

Page / 2

II. TABLE OF CONTENTS
1.

2

Question Presented

TABLE OF CONTENTS

3

TABLE OF AUTHORITIES

4

AND APPELLATE JURISDICTION.... Error! Bookmark not defined.
STATEMENT OF THE ISSUES PRESENTED FOR REVIEW

12

STATEMENT OF THE CASE

Error! Bookmark not defined.

STATEMENT OF THE FACTS

Error! Bookmark not defined.

SUMMARY OF THE ARGUMENT....Error! Bookmark not defined.
ARGUMENT
CONCLUSION

Error! Bookmark not defined.
49

CERTIFICATE OF COMPLIANCE..... Error! Bookmark not defined.

20-1520

Error! Bookmark not defined.

TABLE OF CONTENTS

Error! Bookmark not defined.

CLOSED, APPEAL, PRO-SE

Error! Bookmark not defined.

Black v Vitello, et. al.,

Page / 3

III. TABLE OF AUTHORITIES
Cases
13

28 U.S. Code §144

595393 Alberta Ltd, v. Fossil Industries, Inc.. 2014 NY Slip Op.
11

32406(U)
Board of Directors of Rotary International v. Rotary Club of

Duarte, 481 U.S. 537, 107 S. Ct. 1940, 95 L. Ed. 2d 474 (1987
8
.....12

'Brannon v. Superior Court,'

26

California v. Ciraolo, 476 U.S. 207, 213 (1986)

District Court of Maryland - Activity Report, July 2014 - June
2015, MD.COURTS,
http://mdcourts.gov/district/statistics/2015/fy2015.pdf
[http ://perma.cc/ZR9JJJAG].......................................................... 9
E.g., Flax v. Standard Sec. Life Ins. Co. of N.Y., 150 A.D.2d 894
(3d Dept. 1989....
Florida v. Powel

Black v ViteWo, et. al,

15
29

Page / 4

Gibbs v. St. Barnabas Hosp., 16 N.Y.3d 74, 81 (2010) (quoting
Kihl v. Pfeffer, 94N.Y.2d 118, 123 (1999)................................. 7
Harris v. New York (1971)

29

Hester u. United States, 265 U.S. 57 (1924)

26

Huddleston v. United States, 485 U.S. 681, 691-92 (1988). See
also United States v. Gilan, 967 F.2d 776, 780 (2d Cir. 199.17
Illinois v. Perkins (1990)

29

Jacobsen, 466 U.S. at 11

27

Maryland v. Dyson, 527 U.S. 465 (1999)

28

Mathews, 485 U.S.^at 63

29

Michigan v. Tucker (1974)

29

New York State Club Ass’n. Inc. v. City of New York, 487 U.S.
1, 108 S. Ct. 2225, 101 L. Ed. 2d 1 (1988); Board of Directors
of Rotary International v. Rotary Club of Duarte, 481 U.S.
537, 107 S. Ct. 1940, 95 L. Ed. 2d 474 (1987); Roberts v.
i

United States Jaycees, 468 U.S. 609, 104 S. Ct. 3244, 82 L.
Ed. 2d 462 (1984.............................................................................. 8

Black v Vitello, et. ai,

Page / 5

New York v. Quarles (1984)

29

Oliver v. United States, 466 U.S. 170 (1984)

26

Oliver, 466 U.S. at 179.

26

Oregon v. Elstad (1985)

29

United States v. LaFlam, 369 F.3d 153, 156 (2d Cir. 2004

16

United States v. Lombardozzi, 491 F.3d at 78-7

16

United States v. Scott, 677 F.3d at 79 citing United States v.
LaFlam, 369 F.3d at 156................................. :............... .......... 17
United States v. White, 692 F.3d 235, 244 (2d Cir. 2012)
quoting United States v. Figueroa, 548 F.3d 222, 226 (2d Cir.
16

2008)
Weeks v. United States (1914)

27

STATUTES
22

Mathews, 485 U.S. at 63.
RULES
28 U.S. Code § 144

5

42 USC §1983

6

Black v Vitello, et. al,

Page / 6

IV. Petition of Writ of Certiorari
The Court has jurisdiction over this subject matter to
exercise a judgment in this matter on behalf of Sylvia Black,
Plaintiff - Appellant. Legal Service on Alan Donatelli, Attorney
for Defendant - Appellee was just and proper. The district court
did have the authority to administer justice, in its proper
perspective but did not.
Instead, the court decided in favor of the Peace Officer
Christine Vitello, Defendants Appellees thereby failing to
uphold the integrity and independence of the Judiciary system
on the basis of alleged improper service and nothing more.
Alan Donatelli, Attorney for Defendant - Appellee never
asked for a dismissal based on alleged improper service.
Instead, the Court acted as Attorney and Judge which is unfair
practice.
The Judge did not follow the law and made rulings and
decided this case according to that judge's own personal,
political, or religious views.

Black v Vitello> et. a!..

The Judge was not fair nor

Page / 7

impartial, and Sylvia Black, Plaintiff - Appellant was denied my
fundamental constitutional right to due process of law.1
It is vitally important in a democracy that the Judge and the
judiciary as a whole are impartial and independent of all
external pressures and of each other so that those when Sylvia
Black, Appellant who appeared before them can have confidence
that my case will be decided fairly and in accordance with the
law.23 Sylvia Black’s case was not decided on fairly nor was it
decided in accordance with the law. If Sylvia Black took the
criminal case to trial, no telling what heinous acts would have
been committee against me.
If Peace Officer Christine Vitello broke many laws about
searching and seizing Plaintiffs property, not telling what
crimes would have been committed if I try to win a trial on the
criminal portion of the case.

2)

3

Black v Vitello, et. al,

Page / 8

The only defense on the part of the Alan Donatelli, Attorney
for Defendant - Appellee was their accusations of alleged
improper service,

In terms of the heinous crimes committed

against Plaintiff, Alan Donatelli, Attorney for Defendant Appellee has no defense.

Defendant also failed to provide

discovery items as requested by Plaintiff Sylvia Black which is
an illegal.
NYS promulgates rules laying out the exact grounds for a
challenge of a judge for cause. The Judge also has the
responsibility to take affirmative action to remove the
appearance of impropriety or biased which in this case the court
failed to do. 4Sylvia. Black, Plaintiff - Appellant did serve papers
just and properly to Attorney for Peace Officer Christine Vitello,
Defendant Appellee.
Case Law also states that when a judge acts as a trespasser
of the law, he then loses subject matter jurisdiction and the
Judges orders to dismiss are void, of no legal force.5
Judge Foshio should have enough respect to comply with the
law and should have always acted in a manner that promotes

5

Black v Vitello, et al,

Page / 9

public confidence in the integrity and impartiality of the
judiciary. He did not!
This violation of the Code should lead to disciplinary action
and the degree of discipline, should be determined through a
reasonable application of the text, and should depend on such
factors as the seriousness of the improper activity, the intent of
the judge, whether there is a pattern of improper activity, and
the effect of the improper activity on others or on the judicial
system. 6
Judge Foshio should have performed the duties of the office
fairly, impartially, and diligently which none of the Judges did
who presided over the original claim filed in 2017. He did not!
The duties of judicial office take precedence over all other
activities. The judge should have performed those duties with
respect for others and should not have engaged in behavior that
was harassing, abusive, prejudiced, or biased, but he did.
The

judge

should

have

adhered

to

adjudicative

responsibilities. He did not. Gross misconduct occurred when
Judge Sinatra dismissed the case based on alleged improper

Black v Vitello, et. al.,

Page /10

service when the Alan Donatelli Attorney for Defendant
Appellee did not ask for a dismissal based on improper service.
Gross misconduct occurred when the Judge denied Sylvia
Black, Plaintiff - Appellant the right to a hearing, and when
Judge did not compel Alan Donatelli, Attorney for Defendant Appellee to produce discovery and not to mention the forging of
Judge Hannah’s signature on a fake warrant.
Peace Officer Christine Vitello did not have jurisdiction to
enter Plaintiffs home because even based on the fake warrant
which stated officials from Erie County were to take the action.
Instead, Peace Officer Christine Vitello illegally trespassed on
Sylvia Black’s property, illegally confiscated Sylvia Black’s
property, and said that Plaintiff is to pay Defendant Ten
Thousand Dollars for the care of Plaintiffs animals while Sylvia
Black’s cats were in Defendant’s care. Defendant had no legal
right to possession of Plaintiffs cats.

And Peace Officer

Christine Vitello had no right to the animal cruelty she exhibited
when she euthanized Sylvia Black’s cats and distributed, sold,
adopted out the rest of the cats at her own discretion without
just cause or legal right. In the Appeals Court of US Southern
District, The Court ordered a verbal argument of their own
volition not at the request of the Plaintiff The Oral Argument
was the basis of the US District Court's denial (see attached).

Black v Vitello; et a!.,

Page / 11

V. Options Below
POINT I - THE COURT ERRED BY NOT HOLDING
THE DEFENDANT-PEACE OFFICER CHRISTINE VITELLO
ACCOUNTABLE FOR HIS NON-COMPLIANCE OF THE
LAW,

FIRST

APPELLANT
PARTICULARS

WHEN

SYLVIA

REQUESTED
FROM

A

PEACE

BLACK,

PLAINTIFF

CERTIN
OFFICER

BILL

-

OF

CHRISTINE

VITELLO AND PEACE OFFICER CHRISTINE VITELLO DID
NOT PROVIDE SAME,7

'

Alan Donatelli, Attorney for Defendant - Appellee did not
respond to Sylvia Black’s request for discovery. Sylvia Black
made several requests to the Court for Alan. Donatelli, Attorney
for Defendant - Appellee to provide discovery items and no
response was sent to Sylvia Black until the Court answered in
their Report and Recommendation saying my request was to
establish my innocence in the criminal proceedings against me.
The court erred when they did nothing to enforce the law
on Sylvia Black’s behalf.

For whatever reason Sylvia Black

requested discovery, the law requires Alan Donatelli, Attorney
for Defendant - Appellee to provide them. Alan Donatelli’s non-

Black v Vitello, et. aL,

Page 112

i

compliance was a violation of law and of Sylvia Black’s legal
rights to discovery and the court failed to penalize Attorney Alan
Donatelli’s Attorney for Defendant Appellee for their noncompliance with the law.
Sylvia Black, Plaintiff - Appellant should have had the
opportunity to submit a motion for an order “compelling”
(forcing) discovery under Rule 37(a)(3)(B).
POINT II - THE COURT ERRED BY ACCUSING
APPELLE OF BEING ARRESTED AND THE COURT’S
DECISION TO DISMISS WAS BASED IN PART ON THIS
ERROR.
A. Fingerprints were taken of Sylvia Black, Plaintiff Appellant ten months after the criminal case
commenced.
POINT III - THE COURT ERRED BY ACCUSING
SYLVIA BLACK, PLAINTIFF - APPELLANT OF IMPROPER
SERVICE WHEN NO DOCUMENTATION WAS PROVIDED
TO SUBSTANTIATE THESE ALLEGATIONS AND SYLVIA
BLACK’S SERVICE WAS JUST AND PROPER.
A. Alan Donatelli, Attorney for Defendant Appellee at the
time of service were in the process of relocating to their
Black v Vitello, et. al.,

Page /13

52,000 sq. ft., facility in Erie County from Niagara
County.
POINT IV - THE COURT ERRED WHEN QUOTING
THE DEFENDANT AS SAYING ANIMALS WERE FOUND IN
DEPLORABLE CONDITIONS WHEN ALAN DONATELLI,
ATTORNEY FOR DEFENDANT - APPELLEE SAID NO SUCH
THING.
A. This statement is biased and argumentative.

The

Judge has no personal knowledge as to whether the
animals were found in deplorable condition. The judge
was not there when animals were taken from Sylvia
Black’s home.
THE COURT ERRED BY DENYING

POINT V
APPELLANT’S

LEGAL

REQUEST

FOR

A

HEARING

STATING IN THEIR REPORT AND RECOMMENDATION,
“AN ORAL ARGUMENT WAS DEEMED UNNECESARV’. 8
Oral argument must be allowed in every case. Sylvia
Black, Plaintiff - Appellant has a legal right to a hearing and my
legal rights were once again denied by the court unjustly. The

8

Black v Viteilo, et. a!.,

Page /14

i

case was dismissed without allowing me, my legal rights to
argue this case orally.
POINT VI

THE COURT ERRED WHEN THEY

FAILED TO ISSUE A SUMMONS WITH THE INDEX
NUMBER ON IT TO

SYLVIA BLACK,

PLAINTIFF -

APPELLANT.
The Court dismissed the case in part based on alleged no
summons, no index number on documents when the papers were
initially served and filed with the court.
CONCLUSION - 9Sylvia Black, Plaintiff - Appellant has
proven the Judges who presided over the federal case, acted bias,
and my statements are not based on mere suspicion but fact.
They are based on evidentiary evidence. I have included the
face, forged warrant in my initial complaint. The other
documents include the notarized statement of the examination
of plaintiffs cats which do not establish animal cruelty.
The judge(s) should have been disqualified from deciding
on this case because the judge’s impartiality is being reasonably
questioned. That is why I believe the court changed judges so it

9

Black v Vitello, et. a!.,

Page /15

i

wouldn’t look like the decision to dismiss wasn’t made by the
same judge who was impartial.
There was no equal justice for Sylvia Black, Plaintiff Appellant in this case, because the judge displayed racial and
ethnic bias. There is no place in the courts or anywhere for this
injustice. Judge Foschio exhibited such bias and eliminated
equal justice.
Judge Foschio exhibited among other behaviorisms;
plaintiff had no protection of her rights. He acted in way that
displayed discriminatory, exclusionary, or otherwise unfair acts
on plaintiff, in his decision to dismiss that case with his only
defense being an alleged improper service.

Judge Foschio

overrode the attorney and acted as the defendant and the Judge.
Plaintiff has a right to life, liberty, a fairness by ensuring that I
am not deprived of my interests.
Not only were my 4th amendment rights violated, but my
constitutional rights were violated by the court. This statute
allows Sylvia Black, Plaintiff - Appellant whose constitutional
rights have been violated to sue the responsible public official or
governmental body for money damages.

Black v Vitello, et. al.,

Page /16

i

To enforce Sylvia Black’s, constitutional legal rights
without a remedy is no right at all. I must have a proper way of
enforcing her constitutional rights against the courts and the
Defendants and their attorneys.
I should also be able to assert her legal constitutional
rights, by being granted a money judgment.
The following issues are presented by this Appeal: Did
the court below err by ignoring Sylvia Black’s request for
Discovery and did not reprimand or compel Alan Donatelli,
Attorney for Defendant - Appellee to produce such Bill of
Particulars? Yes.
Did the court below err by not acknowledging that Alan
Donatelli, Attorney for Defendant - Appellee warrant was
illegal? Yes.
Did the court below err by dismissing Sylvia Black’s case
with prejudice solely based on alleged improper service when in
fact service was just and proper and the court has no proof to
justify their allegations of alleged improper service? Yes.
Did the court below err by saying Appellant failed to effect
proper service when Alan Donatelli, Attorney for Defendant Appellee never said such a thing. Yes!
Black v Vitello, et. al.,

Page 117

Did the court below err by ignoring Attorney for Peace Officer
Christine Vitello, Defendant Appellee’s threats to Sylvia Black,
Plaintiff - Appellant?10Yes.
Did the court below err by accusing Sylvia Black of being
arrested? Yes.
Did the court below err by not allowing Sylvia Black her legal
right to a fair trial or hearing? Yes.

10)

Black v Vitello, et a!.,

Page /18

VI. VII. Jurisdiction
Point I
The Court erred by exercising abuse of discretion over the
objection of the Sylvia Black.
This abuse of discretion occurred when the court acted in
"an arbitrary and irrational manner."11. This Court will also find
that a district court abused its discretion "when (1) its decision
rested on an error of law (such as application of the wrong legal
principle) or a clearly erroneous factual finding, or (2) its
decision—though not necessarily the product of a legal error or
a clearly erroneous factual finding—cannot be located within the
range of permissible decisions, i.e., alleged improper service. "

12

While this Circuit has adopted an "inclusionary"
approach to other act evidence under Rule 404(b), 13(per curiam),
the Court has repeatedly ignored Sylvia Black’s statements and

11 P
12

13)

Black v Vitello, et a!.,

Page 119

i

requests, thereby denying the legal right of Sylvia Black, is so
entitled by law.
The Supreme Court laid out the inquiry to be followed for
reviewing)14 (discussing adoption of Huddleston test). Under
Huddleston, "to determine whether a district court properly
admitted other act evidence, the reviewing court considers
whether (1) it was offered for a proper purpose; (2) it was
relevant to a material issue in dispute; (3) its probative value is
substantially outweighed by its prejudicial effect; and (4) the
trial court gave an appropriate limiting instruction to the jury if
so, requested by the defendant. "

15

As you can see here, Alan Donatelli, Attorney for
Defendant - Appellee did not request a dismissal based on
alleged improper service. Peace Officer Christine Vitello stated
that the court does not have jurisdiction due to alleged improper
service.

H2

15

Black v Vitello, et. al.,

Page / 20

This heinous acts on the part of the Peace Officer
Christine Vitello are another case of Police Brutality. Christine
Vitello, et. at., Peace Officers and the other peace officers who
entered plaintiffs home, carry guns with real bullets in them
and these police officers abused her power by breaking the law.
I never invited them into my home when I answered the door
they just barged in and began to open bedroom doors and search
my home without my permission even after I kept telling them
to get out and calling the cops.
They were in my house illegally, opening bedroom doors,
draws walking all through the house, Sylvia Black, Plaintiff Appellant should have had a right to forcibly remove Peace
Officer Christine Vitello and could have. It took everything
Sylvia Black, had to remain calm and only yell back at them and
not retreat. Peace Officer Christine Vitello did not leave until
plaintiffs boyfriend came home. Who knows what would have
happened if he did not show up? Peace Officer Christine Vitello
took the law into her own hands and no one is above the law.
Not even a Peace Officer who carries a gun.
The court took sides with Peace Officer Christine Vitello
by dismissing my case with prejudice because Judge Foschio
said service on Peace Officer Christine Vitello was not proper.
That is their only defense.

Black v Vitello, et a!.,

Page / 21

Three different judges were assigned to this case and all
of them said the same thing. What about the wrong they have
done? Do two wrongs make a right?
The Peace Officer Christine Vitello also broke the law by
not providing discovery items as requested. The Judge did not
allow Sylvia Black, Plaintiff - Appellant to have a hearing
because the judge decided hearing was not necessary, thereby
denying me my legal rights to a hearing.
Where is the justice in this legal system? Sylvia Black,
Plaintiff - Appellant gets convicted of criminal charges for
animal abuse which was not proven but the Peace Officer
Christine Vitello who did commit a crime and it was proven they
committed a crime as well as the judge and the lawyer get to
escape justice and break the law without the consequence or
reprimand? What kind of justice system convicts the innocent
without a trial and lets the guilty go free?
The emotional scars Peace Officer Christine Vitello gave
Sylvia Black, Plaintiff - Appellant may never heal because of the
laws that Peace Officer Christine Vitello broke and the hell
Peace Officer Christine Vitello has caused me.
moments

of Peace

Officer

Christine

Vitello,

Reliving the
Defendant

Appellee’s actions by documenting them in this Brief, are just as

Black v Vitello> et. a!.,

Page / 22

painful for me now as it was when the above incidents originally
occurred.
This information and proof that Peace Officer Christine
Vitello broke several laws and precedents is presented before
you as evidentiary evidence, in the original complaint.
As an American and a Citizen of the USA, Sylvia Black,
Plaintiff - Appellant prides herself on her Constitution. In truth,
the Constitution of the U.S.A. is the heart of our democracy and
freedom. I have been put in several situations by Alan Donatelli,
Attorney for Defendant - Appellee where my Constitutional
Rights have been violated since the onset of this case.
Sylvia Black, Plaintiff - Appellant would like to remedy
those violations by winning this case and having a money
judgment rendered for me of $3.5M or some other reasonable
sum that the court seems just and proper. \
Point II
Alan Donatelli, Attorney for Defendant - Appellee have
little or no respect the justice system. The defendant has little
or no respect for the justice system. And obviously Judge Foschio
has little or no respect for the Justice system. It has been proven

Black v Vitello, et. al,

Page / 23

that these three sets of individuals have broken the law. Why
should they be allowed to get away with breaking the law?!?
Rule 8.4 Misconduct - Lawyers are subject to the same
discipline as judges and civilians are when they violate or
attempt to violate the Rules of Professional Conduct. Many
kinds of illegal conduct reflect adversely on fitness to practice
law, such as the offense of willful failure to provide discovery as
in this case where Peace Officer Christine Vitello failed to
provide discovery.
When a lawyer breaks the law, they’re supposed to be
cited or arrested just like anyone else, there’s no exception to
this rule. Just like when a Judge breaks the law and just like
when a Peace Officer breaks the law. They are all supposed to be
cited and arrested just like anyone else.
Peace Officer Christine Vitello must adhere to the
standards of professional conduct that exist in this state where
they practice. Every state has a disciplinary system under which
lawyers can be punished for violating ethical standards.* Some
acts of prosecutorial misconduct can constitute ethical violations
and thus subject the prosecutor to disciplinary action by the
state bar authority. I have a right to file a complaint at the bar
disciplinary authority.

Black v Vitello, et. o/v

Page / 24

)

Black v Vitello, et. al,

Page / 25

i
i

<:

VII. Constitution Provisions INvolved
Background
In February 2017 Sylvia Black, Plaintiff - Appellant took
a cat to surrender to the SPCA and Christine Yitello asked if she
could speak to me.
I asked Peace Officer Christine Vitello if there was
anything wrong. Peace Officer Christine Vitello failed to answer
my questions and proceeded to interrogate me.
Peace Officer Christine Vitello asked Sylvia Black,
Plaintiff - Appellant if I wanted to surrender my 14-year-old cat
to SPCA and they would Neuter him.” I asked Peace Officer
Christine Vitello “if they were going to do the blood tests to
determine if he would survive the Anesthesia?” Peace Officer
Christine Vitello yelled we don't’ have time to do all of that! I
said, “No thank you."
Peace Officer Christine Vitello began asking Sylvia Black,
Plaintiff - Appellant personal questions like where I worked,
what my phone number was and where did I live. I gave Peace
Officer Christine Vitello my address and phone number but did
not give her anything else. I asked if I could surrender a few

Black v Vitello> et a!.,

Page / 26

cats to SPCA and Peace Officer Christine Vitello said “that's not
what we’re here for
I left and almost immediately after I arrived home, Peace
Officer Christine Vitello called me. She followed me home. I
asked her “what she wanted?” She said, “she wanted to come to
my house. ” I said what for. She said to see if I had any sick cats
to surrender. I said I do not. They came anyway.
Peace Officer Christine Vitello knocked on my door that
afternoon, I opened my door and said who is it and can I help
you and Christine Vitello and Rick Rosenberry barged into my
home, literally pushing me out of the way.
They inspected my house illegally and yelled at me. I told
Peace Officer Christine Vitello, to get out.

Peace Officer

Christine Vitello did not get out continued to walk through my
home. My boyfriend came home and that is when they got out.
Peace Officer Christine Vitello called me several more
times that evening. The next day Peace Officer Christine Vitello
called me at least 10 times. What do you want I asked her?
‘You were supposed to give us four cats”. Peace Officer
Christine Vitello continued to harass Sylvia Black, “you said you

Black v Vitello, et. at,

Page I 27

were going to give us four cats,” Peace Officer Christine Vitello
demanded.
“No, I didn’t”, I said. “ We’re coming over this afternoon to
get the four cats”. Rick Rosenberry demanded. I asked him if
they were going to leave me alone after that? He did not answer.
I put four cats in the cages Peace Officer Christine Vitello
left, and Peace Officer Christine Vitello took the four cats and
left. Not before marching through my home and opening more
bedroom doors without my permission,

Christine Vitello

distracted me while Rick Rosenberry opened doors and searched
all through the house in the other direction.
Peace Officer Christine Vitello saw one cat, I guess that
is why they didn’t take any cats right then and there. Peace
Officer Christine Vitello asked me how many cats I had. I said
12.
They kept calling me and harassing me and making
demands and I finally said I am not letting you back in my house
unless you have a warrant. She said we are coming back to your
house at 10 in the morning. I said not without a warrant.
At 9am I left my house and parked around the corner with
my friend in the truck with me and watched Rick Rosenberry,

Black v Vitello, et. al,

Page / 28

Christine Vitello and Bill Heine kick my door in and steal my
cats out of my home.
Defendants had already harassed me, humiliated me, and
made illegal demands on me without just cause. Just because
they are peace officers does not give them the right to trespass
and steal? No, it does not.
But the Peace officer did violate my fourth amendment
rights, the peace officers did forge Judge Hannah’s signature on
a legal document, Peace officers did not have jurisdiction to
enter Plaintiffs home as the Defendant were in Niagara County
and the Illegal Warrant gave Erie County Officials permission.
Peace Officer Christine Vitello should have been fired or
should be fired since it is established that she forged Judge
Hannah’s signature on a fake warrant! Defendant admitted out
of her own mouth that that scribble-scrabble on the warrant was
Judge Hannah’s signature. And even if it was Judge Hannah’s
legitimate signature, the signature on the fake warrant and the
signature on the other document that the judge was supposed to
sign do not match. Defendant would have been better off to
break and enter with no warrant at all, rather than to forge a
Judge’s signature on a piece of paper in which she had no
jurisdiction in the first place.

Black v Vitello> et. al.,

Page / 29

After defendant left plaintiffs home, plaintiff went home
and saw the fake warrant taped to the inner door not the outside
door. Next thing I know Christine Vitello is calling me again,
repeatedly. Leave me alone I said. What do you want now?
Peace Officer Christine Vitello said she must serve me
with some papers. “What papers”, I asked. Court papers she
said.

Court papers, I asked.

What court papers? She said we

are at your home. .1 said I am not there. Haven’t you bothered
me enough, I asked her? We must serve you with the arraignment
papers. She demanded I had no idea what was going on.
I agreed to meet her outside of Burger King.on Broadway and
Fillmore in the presence of my entourage of friends as witnesses
surrounding me. Peace Officer Christine Vitello gave me some
papers.
When Sylvia Black, Plaintiff - Appellant came home from
court that first day, my neighbor told me those same people from
the SPCA came back and got into my house. I secured my home
by locking all inner doors the only door they could get into was
the outside door that led to the hallway not into my home. I did
not bother to call the cops.

Black v Vitello> et. a!.,

Page / 30

The same four cats Sylvia Black surrendered to Peace Officer
Christine Vitello are the same cats that were used against
Sylvia Black in the criminal proceeding to convict me. Clearly a
case of entrapment.
Pre-Trial Motion There was no pre-trial hearing.
Trial
There was no trial hearing.
The Sentencing
Sylvia Black, Plaintiff - Appellant requested a dismissal of
the criminal charges. When I got to court and was given papers
by my legal aid, the month, day, and year of my birthday was
incorrect. The reason I plead guilty in criminal court is because
I am not familiar with criminal law. I felt as if Peace Officer
Christine Vitello was trying to crucify me.
I sent a letter to Peace Officer Christine Vitello in
December 2019 reminding them that the criminal case had been
dismissed so no further illegal action would be taken against me.

Black v Vitello> et. a!.,

Page / 31

VIII. Statement of Case
The reasons why the appeal should be allowed, and a
judgment granted on Plaintiffs behalf, in the form of a money
judgment is because, of the following.
1. Plaintiffs Fourth Amendment Rights Were Violated
Sylvia Blacks Fourth Amendment rights (Amendment IV) to
the US Constitution is part of the Bill of Rights and prohibits
unreasonable searches and seizures. Defendant - Appellant did
illegally and unreasonable search and seize Plaintiffs property
without a legitimate warrant.
Defendant Appellee illegally searched my home and illegally
seized Sylvia Black’s property out of my home, cats.
In addition, the 4th Amendment (Amendment IV) to the US
Constitution sets requirements for issuing warrants: warrants
must be issued by a Judge or magistrate, justified by probable
cause, supported by oath or affirmation, and must particularly
describe the place to be searched nor the things to be seized.16

1. 16
2. .

Black v Vitello, et. a!.,

Page / 32

Defendant’s fake warrant did not have an affirmation by a
magistrate Judge and did not establish probably cause.
Appellee’s illegal Warrant was not issued by a judge or
magistrate and was not justified by probable cause, was not
supported by oath nor Affirmation, and did not accurately
describe the place, things or persons to be searched or seized. The
fake warrant mentioned, birds, dogs, and other animals. I only
had cats.
The exclusionary rule is one way the amendment is enforced.
Established in this rule 17holds that evidence obtained as a
result of a 4th Amendment violation is generally inadmissible at
criminal trials. Evidence discovered as a later result of an illegal
search may also be inadmissible as "fruit of the poisonous tree"
unless it inevitably would have been discovered by legal means.

3.
4. .
5. ).
17

Black v Vitello, et. a!.,

Page / 33

My property was discovered by illegal means by the Defendantdid seize Plaintiffs property by illegal means.
The 4th Amendment proscribes unreasonable seizure of any
person, person's home (including its curtilage) or personal
property without a warrant. A seizure of property occurs when
there is "some meaningful interference with an individual's
possessory interests in that property, "such as when police
officers take personal property away from an owner to use as
evidence, which was in this case. The amendment also protects
against unreasonable seizure of persons. 18 I was never search,
nor was I read my Miranda rights.
Under the 4th Amendment, law enforcement must receive
written permission from a court of law, or otherwise qualified
magistrate, prior to a search and seizure, to lawfully search and
seize evidence while investigating criminal activity.
Peace Officer Christine Vitello had no written permission
from any court of law nor from otherwise qualified magistrate
therefore Appellee search and seizure was unla wful.
Furthermore, there was not established any type of animal
cruelty Sylvia Black allegedly was being accused of. What was

18 3
Black v Vitello, et. aL,

Page / 34

the nature of the animal cruelty ? Animal cruelty had never been
established!
Defendant did not properly care for Plaintiffs cats when my
cats were in defendant’s custody. Defendant euthanized,
distributed, sold plaintiffs cats before the courts established
their right to do so. Charges of animal cruelty of healthy cats
should be brought against Defendant-Appellee.
A court grants permission by issuing a writ known as a
warrant which they did not in this case. The warrant defendant
had looks nothing like what a real warrant looks like.
Defendant’s fake warrant was not notarized, and no legal
warrant has a picture of the house on it.
This

search

or

seizure

was

unreasonable

and

unconstitutional because it was conducted without a valid
warrant and the police must obtain a warrant whenever
practicable.19 Defendant’s search and seizure of Plaintiffs home
was unreasonable and unconstitutional and illegal.

19

Black v Vitello, et. al,

Page / 35

The 4th Amendment of the U.S. Constitution provides that
as I said before, "the right of the people to be secure in their
persons

houses, papers, and effects, against unreasonable

searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly.
Peace Officer Christine Vitello denied Sylvia Black, Plaintiff
- Appellant the right to be secure in my home, when Peace Officer
Christine Vitello trespassed on my property, stole my (cats),
illegally searched my house, refusing to leave when asked,
harassed, intimidated, entrapped me into giving them my
personal information so Peace Officer Christine Vitello can gain
illegal access to my home. 20
Peace Officer Christine Vitello did not read Sylvia Black,
Plaintiff - Appellant Mini Miranda rights 21nor was I informed
of what was going on the whole time I was being harassed. 22

20

21

22

Black v Vitello, et. al.,

Page / 36

Even though I was not arrested my rights were still supposed to
be read to me. Peace Officer Christine Vitello never showed up
in criminal court.
There was no proof presented no probable cause, no
preponderance of the evidence nor was there clear or convincing
evidence establishing animal abuse. Pictures that were taken
does not establish animal abuse. There is nothing in the notes
that establish animal abuse.

The dates of the report are

ambiguous as well. The exam was done a month after the cats
were seized from Sylvia Black’s home.
Sylvia Black, Plaintiff - Appellant was ordered to come back
and forth to court, in between the drug counseling, alcohol
counseling and mental health counseling, and having to stand
before Judge Calvo just to have the case adjourned for another
month. No counseling was necessary. Sylvia Black, Plaintiff Appellant does not take drugs. I do not drink. I am in my right
mind.

Black v Vitello> et. al,

Page / 37

The humiliation of having someone stand in the bathroom
while I urinated in a cup and it was degrading. Having to be
questioned and interrogated about my life in a continued effort
to entrap me was shameful and embarrassing.
Why should not Peace Officer Christine Vitello be held
accountable for their illegal actions. Peace Officer Christine
Vitello is in a position of authority and should know better and
still forged Judge Hannah’s signature on a Warrant, did not
follow proper procedures and illegally trespassed on Sylvia
Black’s property, illegally seized my home, harassed me,
intimated me, coerced, and entrapped me.
Peace Officer Christine Vitello entrapped Sylvia Black, by
compelling Sylvia Black to surrender to Peace Officer Christine
Vitello four cats to her. She used those four cats to prosecute
against me and establish the alleged animal abuse case.
Peace Officer Christine Vitello illegally searching my home.
Peace Officer Christine Vitello harassed me until I cooperated
with her to surrender those four cats. Even after surrendering
those four cats, she and 2 other peace officers illegally search and
seized my home and my cats.

Black v Vitello> et. a!.,

Page / 38

She kept calling and knocking on my door repeatedly, until I
did relinquish those four cats and then used the cats that were
given to her against me in a court of law thereby accusing me of
animal abuse.
Peace Officer Christine Vitello did not read me my rights.
Sylvia Black, Plaintiff - Appellant did not know what was going
on the whole time Peace Officer Christine Vitello was harassing
me.

Even after Peace Officer Christine Vitello gave me court

papers to appear in court, I still did. not. know what was
happening and why Peace Officer Christine Vitello was bothering
me.
Clearly this is a case of police brutality.

Defendant-

Appellant’s was vicious and ruthless in the rough treatment of
me without regard for the law. Peace Officer Christine Vitello
was fully aware of the law and still decided to disregard the law
for which Peace Officer Christine Vitello is hired to protect and
serve not destroy and humiliate. BLACK LIVES MATTER!
Peace Officer Christine Vitello did not beat Sylvia Black,
Plaintiff - Appellant physically however Peace Officer Christine
Vitello did beat Sylvia Black, emotionally.. Sylvia Black’s,
mother had just died, and Sylvia Black wanted to relocate back
to New Jersey, where I am from but was unable to grieve

Black v Vitello, et. al.,

Page / 39

properly or relocated due to the court proceedings having to go
back and forth to court and counseling. Sylvia Black’s emotional
state was and is quite unstable. I was unable to maintain gainful
employment due to the emotional state Peace Officer Christine
Vitello put me in because of her illegal acts against me.
Now with this criminal conviction over my head, even
though it is a misdemeanor, it is preventing Plaintiff-Appellant
today from obtaining gainful employment and making a living.
Sylvia Black, Plaintiff - Appellant is on a variety of
medication to keep me stable and emotionally calm. I still have
not recovered from my emotional wounds and the illegal acts
committed against me, breaking, and entering, stealing,
harassing, yelling, disrespecting me in my own home. Peace
Officer Christine Vitello was screaming and disrespecting at me
in my own home and refused to get out.
I do not even feel safe in my own home. I have not felt
save since this incident has occurred. Every time the doorbell
rings, I jump. I have isolated myself from the world. I do not
socialize like I used to. I live my life as a hermit. I stay home
more than I should. I am afraid to leave my home for any length
of time for fear of break in. I have a lock on every room in my
house including the bedroom. I cannot even turn out all the

Black v Vitello; et. ai,

Page / 40

lights at night. I am afraid of the dark. I have Christmas lights
inside each room in my house to keep each room illuminated at
night. I do not open all the windows when it is hot. I crack the
windows just barely to get some air into the house.
I have cameras all around the house on the inside and the
out. I have a stick in each window to keep anyone from getting
in my house through the window when I leave it open at night.
I live in constant fear of someone kicking my door down and
invading my privacy. I jump at every sound.
When my mother died, she left each of us a little money
after the house was sold. Each of us got a little something. That
was the money I was going to use to relocate with.
I could not relocate because I was going back and forth to
court. When the court proceeding was over not only was I not in
any emotional state to relocate, but I had run out of money. As
soon as I got that money that’s when Defendant’s Appellee is
started snooping around me and building an illegal criminal
case against me.
Now I cannot get a job because I have a criminal
conviction on my background report, I get a social security check
each month, but I do not reside in subsidized housing. I am 65

Black v Vitello, et. al,

Page / 41

years old, and I am not ready to just lay down and die. I have
no one who is in any position to help me. This Coronavirus
Pandemic has put a lot of us in a financial bind. I was going to
buy me a house. Now I am lucky just to have a roof over my
head.

Black v Vitello, et. ai,

Page / 42

IX. Reasons for Granting Writ
Christine Vitello, Defendant- Appellee et. al., violated
Sylvia Black’s Constitutional Rights under the 4th Amendment:
o Peace Officer Christine Vitello did trespass,
intrude, infringe on Sylvia Black property several
times without my permission,
o Peace Officer Christine Vitello did interrogate
Sylvia Black, Plaintiff - Appellant without cause or
justification on numerous occasions as a means of
gaining my address, phone number, etc.,
o Peace Officer Christine Vitello did harass, bother,
pester, badger Sylvia Black, Plaintiff - Appellant by
calling me numerous times on the phone without
explanation even after I asked to be left alone,
o Peace Officer . Christine Vitello did steal Sylvia
Black’s property from my home after gaining illegal
entry to my home more than once,
o Peace Officer Christine Vitello did not explain
what Sylv ia Black the nature of what I was being
accused of nor charged with,
o Peace Officer Christine Vitello did sell, distribute,
euthanize, distribute, sell give away, Sylvia Black’s
property without the authority to do so,
Black v Vitello; et al

Page / 43

o Peace Officer Christine Vitello forged Judge
Hannah’s signature on a Warrant that allegedly
gave Erie County Authorities permission to enter
Sylvia Black’s home, Peace Officer Christine
Vitello had no jurisdiction to enter my home,
because Defendant- Appellee’s place of business
was in Niagara County at the time of the illegal
break-in into my home,
o Attorney for Peace Officer Christine Vitello did not
respond to discovery items,
Defendant- Appellee illegal search and seizure was not
supported by probable cause or a valid warrant. The illegal
search or seizure was deemed unlawful because it was not
signed by a Magistrate Judge and there was no probable cause
established prior to the illegal search and seizure.
Search Warrant was not filed with the county clerk, nor
was a signed and notarized deposition from a law enforcement
agency nor was an application for a warrant filed until 30 days
after the first court date. Court date was in February 2017,
application for a warrant was filed in March 2017.
Peace Officer Christine Vitello did not bring this matter
before a Magistrate Judge.

Black v Vitello, et. a!.,

Peace Officer Christine Vitello

Page / 44

searched my home without having permission to enter my home.
Peace Officer Christine Vitello barged in when I opened the door
and asked who it is, Peace Officer Christine Vitello pushed their
way into Sylvia Black’s home.
Peace Officer Christine Vitello did illegally search my
home four times. Peace Officer Christine Vitello called me all
through the day demanding I let Defendant- in.
When Sylvia Black, Plaintiff - Appellant told Peace
Officer Christine Vitello that I was not going to allow Peace
Officer Christine Vitello, Appellee into my home anymore
without a warrant. That’s when Christine Vitello forged Judge
Hannah’s signature on a piece of paper (see attached illegal
warrant) and was conducted in violation of Sylvia Black’s 4th
Amendment rights.
All evidence obtained because of that illegal search and
seizure should not have been used against the me in the criminal
case. Peace Officer Christine Vitello sold, distributed, and
euthanized my cat’s without having the legal right to do so.
Appellant’s cats were distributed some of Plaintiffs cats
to other animal shelters and adopting them out before the court
case against me had been established.

Black v Vitello; et a!.,

It was Defendant’s

Page / 45

responsibility to take care of Plaintiffs cats until the Judge
decided whether to convict Sylvia Black or not.
Peace Officer Christine Vitello called Sylvia Black’s home
on numerous occasions to find out what I was feeding my cats.
While my cats were in defendant’s care, defendants- appellant
did nothing to attribute to the health of any of plaintiffs cats
while in defendant’s care. And in defendant-appellant in one of
their statements said they would seek to enforce plaintiffappellee to pay defendant-appellant ten thousand dollars for the
care defendant-appellant allegedly provided.
Therefore, Peace Officer Christine Vitello was reckless,
thoughtless, and un-attentive despite letters Plaintiff send to
defendant objecting to euthanizing. Defendants did not care
about the health of any of Plaintiffs cats. And yet Plaintiff gets
accused of 'animal cruelty ’?
Sylvia Black, Plaintiff - Appellant was charged with four
counts of Animal Abuse and charged with a Misdemeanor.
Somehow another count of animal cruelty appeared on the
docket after this case commenced.
Sylvia Black, Plaintiff - Appellant underwent drug
counseling, alcohol counseling and mental health counseling all

Black v Vitello; et. ai,

Page / 46

^7

because of Defendant- Appellant’s illegal acts.

This drug,

alcohol and mental counseling was quite debilitating, having
someone stand in the bathroom watching you use the toilet.
Only for the Judge to tell me ‘Treatment Was Not Necessary’.
Peace Officer Christine Vitello did not file the proper
paperwork, nor did Peace Officer Christine Vitello possess the
proper paperwork to file. A forged warrant, an application for
that same warrant filed 30 days after the case commenced. No
signed statement from a Magistrate establishing just cause and
giving Defendant-Appellant permission to take Plaintiffs cats.
Even though the fake forged warrant said Erie County
officials had permission to enter, defendant - appellants place of
employment at that time, was in Niagara County at the time.
The same month plaintiff-appellee filed this case in federal
court, defendant - appellants relocated to their 52,000 square
foot facility in Erie County.
There was no affidavit setting forth substantial facts by
defendant which was supposed to establish probable cause and
was supposed to be filed in every instance in which a search
warrant is requested before the defendant broke into plaintiffs
home.

Black v Vitello, et. al,

Page / 47

Plaintiff has a right to live in her house in peace without
intrusion. Defendants violated that right. Defendants displayed
criminal behavior. And Plaintiff gets stuck with a criminal
conviction?
Therefore, Plaintiff is seeking the full amount of three
million five hundred thousand dollars as Judgment on behalf of
Plaintiff, or a sum of money as judgment reasonable in the eyes
of the court.

Black v Vitello> et. a!.,

Page / 48

X. CONCLUSION
My case was dismissed after the court ordered an Oral
Argument which I did not ask for. The attorney was not present.
I was interrogated and was not able to present my argument.
For the foregoing reasons, Sylvia Black, Pro Se, Plaintiff,
respectfully ask that this Court issue a writ of certiorari to
review the judgment of the US District Court, Southern District,
NY of Appeals.
DATED, May 19, 2021

Sylvia Black, Pro-Se
3843 Union Road, 15-242
Cheektowaga, NY 14225
716 428 9892
Sblack3001@gmail.com
Supreme Court of the USA
Office of the Clerk, 1 First Street, NE
Washington, DC 20543
Alan Donatelli, Esq.,
Attorney for the Defendant(s)
11 Summer Street
Buffalo, Ny 14209
Tel.: (716) 886-4725
alan@aiandonatelli.com

Black v Vitello, et. al.,

Page / 49

